OIG Audit Report GR-30-99-008
Office of Community Oriented Policing Services Grants to the Anne Arundel County, Maryland Police Department
Audit Report GR-30-99-008
September 30, 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Anne Arundel County, Maryland Police Department (grantee).  The purpose of the grants is to enhance community policing.  The grantee was awarded a total of $4,847,175 to hire 61 new police officers and redeploy the equivalent of 11 existing full-time officers from administrative duties to community policing.
	
	We reviewed the grantee's compliance with eight essential grant conditions.  We found the grantee's budgeting practices, hiring of officers, local matching funds, retention, and community policing activities to be acceptable.  However, we found weaknesses in three other areas as identified below.  As a result, we question $261,768 and recommend an additional $10,407 be put to better use. 

 	
Grantee reimbursement requests contained unallowable costs for equipment purchases not authorized in the grant application.  

	The grantee had not developed plans on how they would track officer time redeployment for the MORE 95 grant.  Further, the grantee did not track the time-savings resulting from the MORE 96 grant.  

	Grantee reports were submitted that were either not accurate, or not timely.  Additionally, the grantee failed to submit two Financial Status Reports.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.